           STATUTORY AND ADMINISTRATIVE
                 RESPONSIBILITIES

The Inspector General Act of 1978 (Public Law 95-452), as amended, sets forth specific re-
quirements for semiannual reports to be made to the Chairman for transmittal to the Con-
gress. A selection of other statutory and administrative reporting and enforcement respon-
sibilities and authorities of the Office of Inspector General (OIG) are listed below:

                    OIG AUDIT AND MANAGEMENT REVIEW
Public Law (P.L.) 97-255    Federal Managers’ Financial Integrity Act of 1982
P.L.          1041-34       Debt Collection Improvement Act of 1996
P.L.          101-576       Chief Financial Officers Act of 1990
P.L.          102-486       Energy Policy Act of 1992
P.L.          103-62        Government Performance and Results Act of 1993
P.L.          103-355       Federal Acquisition Streamlining Act of 1994
P.L.          103-356       Government Management Reform Act of 1994
P.L.          104-106       Information Technology Management Reform Act of 1996
P.L.          104-208       Federal Financial Management Improvement Act of 1996
P.L.          107-289       Accountability of Tax Dollars Act of 2002
P.L.          107-347       Federal Information Security Management Act of 2002
General Accounting Office Government Auditing Standards

             CRIMINAL AND CIVIL INVESTIGATIVE AUTHORITIES
Title 5                     United States Code, section 552a
Title 18                    United States Code, sections on crime and criminal
                            procedures as they pertain to OIG’s oversight of departmental
                            programs and employee misconduct
Title 31                    United States Code, section 3729 et seq., the False Claims Act
                                                                     ig
                                             October 2005 SemiAnnual Report




                                           TABLE OF CONTENTS
                                                                                                                                             Page

COMMISSION’S TOP MANAGEMENT CHALLENGES . . . . . . . . . . . . . . . . . . . . . .                                                                 1
Management Challenge: Competitive Sourcing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     1
Management Challenge: Improved Financial Performance . . . . . . . . . . . . . . . . . . . . . . .                                                 2
Management Challenge: Budget and Performance Integration . . . . . . . . . . . . . . . . . . . .                                                   2
Management Challenge: Expanded Electronic Government . . . . . . . . . . . . . . . . . . . . . .                                                   2
Management Challenge: Strategic Management of Human Capital . . . . . . . . . . . . . . .                                                          3

COMMISSION’S ORGANIZATIONAL STRUCTURE . . . . . . . . . . . . . . . . . . . . . . . .                                                               5

COMMISSION PROFILE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            6

THE OFFICE OF INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                 8

AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    9
Audit Report List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         9
Summary of Significant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       9
  Evaluation of the U.S. International Trade Commission’s Fiscal Year 2005
    Information Security Program and Practices,
      OIG-AR-04-05 (September 27, 2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                 9
Audit Follow-up . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        11
Management Letter: Audit of the U.S. International Trade Commission’s
  Financial Statements for the Year Ended September 30, 2004,
    OIG-AR-03-05 (March 24, 2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            11
Evaluation of the U.S. International Trade Commission’s Discretionary
  Document Mail Distribution Program, OIG-AR-01-04
    (May 26, 2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           12
  Evaluation of the Commission’s Travel Program, OIG-AR-03-02
    (September 30, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 12
  Evaluation of USITC’s Records Management, OIG-AR-05-00 (March 7, 2001) . . . .                                                                   13
INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        14




                                                                          i
                                                                 ig
                                          October 2005 SemiAnnual Report




                           TABLE OF CONTENTS-Continued
                                                                                                                                      Page


INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
  Summary of Investigative Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

OTHER ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            16
 Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          16
 Government Accountability Office (GAO) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           16
 Management Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              17
 Liaison Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   17

REPORTING REQUIREMENTS INDEX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

TABLE 1: AUDIT REPORTS WITH QUESTIONED COSTS                                                               . . . . . . . . . . . . . . . . . 20

TABLE 2: AUDIT REPORTS WITH RECOMMENDATIONS THAT
 FUNDS BE PUT TO BETTER USE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22




                                                                      ii
                                          ig
                            October 2005 SemiAnnual Report




                      COMMISSION’S TOP
                   MANAGEMENT CHALLENGES
The “Top Management Challenges” facing the Commission as identified by the OIG—as
well as recent OIG activities relating to each challenge—are discussed below. Through
audits and inspections, the OIG has been helping the Commission to address these
challenges.
We discuss the Commission’s management challenges within the framework of the
President’s Management Agenda (PMA) that included five somewhat interrelated
Government--wide initiatives: (1) Competitive Sourcing, (2) Improved Financial
Performance, (3) Budget and Performance Integration, (4) Expanded Electronic
Government, and (5) Strategic Management of Human Capital.
Because the Commission was not among the 24 PMA agencies and has not established
PMA deliverables and time lines, neither the Commission nor the OIG has attempted to
score its PMA progress. However, the Commission’s FY 2005 and FY 2006 Budget
Justifications, as well as its strategic planning documents, expressed the Commission’s
commitment to the spirit of the five PMA initiatives. OIG work addressing the
Commission’s adherence to that spirit is discussed below.
Management Challenge: Competitive Sourcing. To improve the performance and
efficiency of activities that are commercial in nature, the PMA calls for departments and
agencies to compare their commercial activities with those of the private sector and
determine whether the private sector or government employees perform the activity. The
intended outcome is better service at a lower price.
The Commission has competitively contracted for information technology services, certain
editing and publishing services, mailroom and general labor services, cleaning and
building maintenance services, and security services. Private sector contract employees
comprise more than 10 percent of on-site personnel. In addition, other services are acquired
on an as-needed basis, such as virtually all equipment maintenance services, application
systems design and development, and certain audit and financial services. For example,
the OIG contracts for audit services. Also, the Commission has made competitive awards
for consulting services regarding information security, preparation of financial statements,
information technology (IT), and human capital planning.
The Commission has stated that its permanent staff is devoted to core agency investigative
functions and recurring support activities where the cost of outsourcing is less competitive.
In August 2004, the Commission issued its seventh comprehensive list of commercial

                                             1
                                          ig
                           October 2005 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued

activities consistent with the Federal Activities Inventory Reform (FAIR) Act. The
Commission has said that it will continue to evaluate competitive alternatives and efficient
service contracting options to maximize efficiency and minimize cost. During this period,
OIG audits and inspections did not address competitive sourcing.

Management Challenge: Improved Financial Performance. This initiative is to
improve the quality and timeliness of financial information so that it can be used to reduce
waste, fraud, and abuse and manage federal programs more effectively. The key
components of the Commission’s total budget were personnel (75 percent) and rent (10
percent). In compliance with the Accountability of Tax Dollars Act of 2002, the Commission
produced financial statements, notes and a management discussion and analysis for FY
2004. During the prior semiannual reporting period, the OIG’s audit found no material
weaknesses and resulted in an unqualified opinion on the statements. At present, the
Commission is completing its FY 2005 statements for which we have an audit in process.

Management Challenge: Budget and Performance Integration. The Office of
Management and Budget (OMB) plans eventually to expand its examination of federal
budget decisions to 100 percent of federal programs. Performance information will be used
to (1) end or reform programs that either cannot demonstrate positive results or are clearly
failing and (2) put resources in programs that can prove they are successful.

In the Commission’s budget, all indirect costs are allocated to the Commission’s five
operations with the exception of the OIG activities, certain labor and union activities, and
certain nonpersonnel costs. These are reported as unallocated indirect costs. The
Commission also presents data using a budget object classification methodology. Budget
integration efforts to date have allowed Commission managers more effectively to compare
changes in workload with changes in cost. In doing so, the Commission is able to determine
whether resources are being allocated efficiently. The performance goals and indicators in
the Commission’s Annual Performance Plan also provide measures by which the agency’s
activities can be assessed. The Commission’s Program Performance Report for FY 2004 was
presented in the Performance and Accountability Report submitted to Congress as
required by the Accountability of Tax Dollars Act of 2002. During this period, OIG audits
and inspections did not address budget and performance integration.

Management Challenge: Expanded Electronic Government. The Expanded
Electronic Government Initiative is designed to bring more services to the American citizen
over the Internet, make government more efficient, and improve information technology
(IT) management throughout the Executive Branch. Agencies continue to manage their IT

                                             2
                                         ig
                           October 2005 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
within a framework the Administration set up to avoid problems before investments are
made and taxpayer dollars lost. Agencies must demonstrate that their projects will provide
significant value to the mission, have a reasonable likelihood of success in meeting goals
and objectives, incorporate sufficient IT security, help achieve the PMA, and not duplicate
other investments.
Every Commission business process—investigations, industry and economic analysis,
trade information services, trade policy support, and administration—depends on reliable
and effective information systems and services. The information that the Commission
processes and generates is a valuable asset that management must protect from loss,
misuse, unauthorized access or modification. The continued challenge the Commission
faces is how to apply adequate resources to ensure sufficient information security. Much of
this information is in electronic form, resides in a variety of hardware platforms and
software applications, and is accessible through various communications links.
Congress enacted the Government Information Security Reform Act (GISRA) in 2000, and
the Federal Information Security Management Act (FISMA) in 2002, to help federal
organizations protect government information resources. Each agency must centralize
information security management under its Chief Information Officer (CIO), as the
Commission did in FY 2003. The need for centralized information security management
results, in part, from the highly interconnected nature of modern information systems.

Agency Inspectors General are to conduct an annual independent evaluation of agency
information security programs and practices. Accordingly, we conducted the fifth annual
comprehensive audit of the Commission’s information security program during this period.
The Commission made limited progress in strengthening its information security program
plan during the 2005 fiscal year. However, we made 23 recommendations for improvement
with which the Commission concurred (discussed on page 9).

Management Challenge: Strategic Management of Human Capital. Facing sub-
stantial prospective retirements, agencies must hire and retain people with needed skills
and hold them accountable for serving customers and stakeholders. OMB determined that
20 PMA agencies had plans in place to assess their workforce and to use every tool at their
disposal to recruit and retain the workforce they need to fulfill their missions.

As previously noted, human capital is the Commission’s largest resource, with salaries and
personnel benefits representing approximately 75 percent of the FY 2005 budget. The
Commission maintains an expert staff of professional international trade and
nomenclature analysts, investigators, attorneys, economists, computer specialists and

                                            3
                                         ig
                           October 2005 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
administrative support personnel. All employees are located at 500 E Street SW,
Washington, DC 20436. At the end of FY 2005, the Commission employed a total of 361
permanent employees.
During this period, the Commission enrolled all senior managers, including the Inspector
General, in a 48-hour leadership training program provided by the U.S. Office of Personnel
Management’s Federal Executive Institute. OIG audits and inspections did not address
human capital management.




                                            4
                                                                                          ig
                                                                   October 2005 SemiAnnual Report




                                         COMMISSION’S ORGANIZATIONAL STRUCTURE

                                                   U.S. International Trade Commission




                                                                                Chairman

                                                                             COMMISSION




        Office of the         Operations                                                     Chief      Administration                           Office of
                                                   Office of the       Office of                                               Office of          Equal       Office of the
       Administrative         Office of the         General            External           Information    Office of the        Inspector                        Secretary
        Law Judges             Director                                                      Officer      Director                              Employment
                                                    Counsel            Relations                                               General          Opportunity




                                                       Office of         Office of          Office of     Office of
 Office of        Office of          Office of       Tariff Affairs                       Information                      Office of           Office of
Economics        Industries       Investigations                      Unfair Import                       Human            Facilities
                                                      and Trade       Investigations      Technology     Resources                             Finance
                                                     Agreements                             Services                      Management




     Budget Committee                                                                                     Information Resources Management Steering Committee (IRMSC)
        Authority: Adm. Order 00-06, dated 7/26/00                                                           Authority: Adm. Order 00-08, dated 8/25/00

                                                                                                          Labor-Management Occupational Safety and Health Committee
     Directives Review Committee                                                                            Authority: Adm. Order 05-04, dated 2/10/05
         Authority: CO71-U-004, dated 7/11/97

     Document Imaging Oversight Committee (DIOC)                                                          Labor-Management Partnership Council
        Authority: Adm. Order 96-06, dated 3/15/96                                                          Authority: Adm. Order 03-05, dated 2/11/03

     Executive Resources Board (ERB)                                                                      Strategic Planning Committee (SPC)
        Authority: Adm. Order 05-13, dated 6/27/05                                                           Authority: Adm. Order 02-08, dated 5/3/02

     Incentive Awards Committee (IAC)                                                                     Senior Executive Service Performance Review Board (PRB)
         Authority: Adm. Order 92-27, dated 7/2/92 and Adm. Order 97-02, dated 10/15/96                     Authority: Adm. Order 02-09, dated 7/15/02




                                                                                               5
                                          ig
                           October 2005 SemiAnnual Report




                        COMMISSION PROFILE
                          http://www.usitc.gov
The Commission is an independent, nonpartisan, quasi–judicial federal agency established
by Congress to provide trade expertise to both the Legislative and Executive Branches of
government. Its mission is to: administer U.S. trade remedy laws within its mandate in a
fair and objective manner; provide the President, the U.S. Trade Representative (USTR)
and the Congress with independent, quality analysis, information, and support on matters
of tariffs and international trade and competitiveness; and maintain the Harmonized Tariff
Schedule of the U.S. In so doing, the Commission serves the public by implementing U.S.
law and contributing to the development of sound and informed U.S. trade policy. Major
Commission activities include:
       j Import Injury Investigations—The Commission makes determinations in a
          variety of import injury investigations, primarily antidumping and countervailing
          duty (AD/CVD) investigations concerning the effects of unfairly traded imports on
          a U.S. industry.
       j Intellectual Property–Based Investigations—The Commission adjudicates
          complaints brought by domestic industries under section 337 of the Tariff Act of
          1930 that allege infringement of U.S. intellectual property rights and other unfair
          methods of competition by imported goods.
       j Industry and Economic Analysis—The Commission’s industry and economic
          analysis program consists of probable economic effects investigations under section
          131 of the Trade Act of 1974 or section 2104 of the Trade Act of 2002; analysis of
          trade and competitiveness issues under section 332 of the Tariff Act of 1930; and
          independent assessments on a wide range of emerging trade issues.
       j Trade Information Services—The Commission’s trade information services
          include such activities as legislative reports; maintenance of the Harmonized Tariff
          Schedule; Schedule XX; U.S. Schedule of Services Commitments under the General
          Agreement on Tariffs and Trade/World Trade Organization; preparation of U.S.
          submissions to the Integrated Database of the World Trade Organization; and certain
          other information gathering, processing, and dissemination activities.
       j Trade Policy Support—The Commission supports the formulation of U.S. trade
          policy, providing objective input to both the Executive Branch and the Congress on
          the basis of the distinctive expertise of its staff.

                                             6
                                           ig
                           October 2005 SemiAnnual Report




COMMISSION PROFILE—Continued
The Commission consists of six Commissioners, appointed by the President and confirmed
by the Senate, who serve one term of nine years, unless appointed to fill an unexpired term.
No more than three Commissioners may be of the same political party. The Chairman and
Vice Chairman are designated by the President and serve a 2–year statutory term. The
Chairman is responsible, within statutory limits, for the administrative functions of the
Commission.
The current Commissioners are Stephen Koplan, Jennifer A. Hillman, Deanna Tanner
Okun, Charlotte R. Lane, Daniel R. Pearson, and Shara L. Aranoff. The current Chairman
is Stephen Koplan and the current Vice Chairman is Deanna Tanner Okun.
During this period, there was a change in the composition of the Commission.
Commissioner Marcia E. Miller, whose term expired December 16, 2003, resigned from the
Commission on September 5, 2005. Shara L. Aranoff was sworn in as the 80th
Commissioner on September 6, 2005, for the term expiring on December 16, 2012.
In FY 2005, the Commission had an estimated $61.7 million in available funds and a
staffing plan for 388 permanent positions and 25.5 term/temporary positions. All
employees are located in one building at 500 E Street, SW, Washington, DC.




                              Shara L. Aranoff, Commissioner




                                               7
                                              ig
                              October 2005 SemiAnnual Report




              THE OFFICE OF INSPECTOR GENERAL
                     http://www.usitc.gov/oig
The Commission established the OIG pursuant to the 1988 amendments to the Inspector
General Act. The Inspector General reports directly to the Chairman. The Inspector
General is responsible for directing and carrying out audits, investigations, and inspections
relating to Commission programs and operations. The Inspector General also provides
comments and recommendations on proposed legislation, regulations, and procedures as
to their economy, efficiency and effectiveness.
As shown in the organizational chart, the OIG had three full–time positions and one
part–time position in FY 2005.
For FY 2005, the OIG was allocated 3.5 staff years. This provided for three full–time
positions (Inspector General, Assistant Inspector General for Audit, and Paralegal
Specialist) and one part–time position (Counsel to the Inspector General). The Commission
also allocated $230,000 for OIG contracted audit and review services for FY 2005.




                          Office of Inspector General: Organization
  Full-time

          Inspector General



                                                                               Part-time

    Assistant Inspector
                               Paralegal Specialist                      Counsel to the
     General for Audit
                                                                       Inspector General




                                                 8
                                        ig
                          October 2005 SemiAnnual Report




                                     AUDITS
                                 Audit Report List
We issued one audit report during this period:
       j OIG-AR-04-05, Evaluation of the U.S. International Trade Commission’s Fiscal
         Year 2005 Information Security Program and Practices (see page 9)
Generally, the Commission made progress implementing pending actions recommended in
the following reports since issuance of our last Semiannual Report:
       j OIG-AR-03-05, Management Letter: Audit of the U.S. International Trade
         Commission’s Financial Statements for the Year Ended September 30, 2004 (see
         page 11)
       j OIG-AR-01-04, Evaluation of the U.S. International Trade Commission’s
         Discretionary Document and Mail Distribution Program (see page 12)
       j OIG-AR-03-02, Evaluation of the Commission’s Travel Program (see page 12)
       j OIG-AR-05-00, Evaluation of USITC’s Records Management (see page 13)


                      Summary of Significant Audits
Evaluation of the U.S. International Trade Commission’s Fiscal Year 2005
Information Security Program and Practices, OIG-AR-04-05 (September 27, 2005)
http://www.usitc.gov/oig/ OIG-AR-04-05.pdf
The OIG conducted our annual independent audit of the Commission’s information security
program and practices to determine if the Commission: (1) implemented appropriate
actions to address recommendations made in OIG-AR-01-05 (October 6, 2004); and (2) met
Federal Information Security Management Act criteria.
The Commission made limited progress in strengthening its information security program
plan during the 2005 fiscal year. The most commendable accomplishments include:
       n Completing a certification and accreditation package for the Data Web Cluster;
       n Performing audits on several systems to evaluate security;
       n Separating operational duties from the duties of the system administrator of the
         travel management system; and
       n Eliminating the employee’s Social Security number as the required user
         identification for a major application.

                                           9
                                         ig
                           October 2005 SemiAnnual Report




AUDITS—Continued
The Commission must however take significant further action in order to achieve
consistency with U.S. Office of Management and Budget (OMB) Circular A-130, Appendix
III Security of Federal Automated Information Resources (February, 1996). While the
security process is a continuous cycle of evaluating, improving, and monitoring controls of
the major IT systems, the Commission had not completed many basic steps towards
achieving security over its systems. The OIG identified weaknesses in these areas as early
as 2001, but the Commission has been slow in fully implementing the recommendations
because the Commission did not effectively manage and report all open weaknesses in the
agency-wide Plan of Action and Milestones (POA&M).
Problems with the POA&M process occurred because management had not developed,
documented, and put in place a policy and procedures for ensuring all weaknesses and OIG
recommendations are listed in the POA&M and are resolved in a timely manner. The
Commission concurred and agreed by December 25, 2005, to establish procedures to fully
incorporate all identified weaknesses into the POA&M process. The process will include
consideration of available resources to enable setting realistic milestone and completion
dates, quarterly review of the status for each weakness, and documented review by
management prior to any weakness being removed from the POA&M.
We made 23 recommendations to improve the Commission’s IT security. In addition to the
9 open recommendations from last year’s audit (OIG-AR-01-05), this audit made 14 new
recommendations. The Commission concurred with our findings and recommendations.
Due to the sensitive nature of the information contained in our report, we have limited its
distribution.




                                           10
                                        ig
                          October 2005 SemiAnnual Report




                             AUDIT FOLLOW–UP
Pending recommended actions remain open on four audits reported in the previous
semiannual report:
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for the Year Ended September 30, 2004 OIG-AR-03-05
(March 24, 2005) http://www.usitc.gov/oig/OIG-AR-03-05.pdf
The Commission’s planned actions will meet the intent of all five recommendations when
implemented.
      j Issue an Administrative Notice to provide guidance for controlling both fixed
        assets and accountable property. The guidance should clarify procedures and
        assign responsibilities for controlling all types of assets. Additional OIG
        Comment: When accomplished, the above action will satisfy this
        recommendation if the above mentioned guidance clearly identifies the
        responsible official and associated duties to control fixed assets, accountable
        property other than ADP equipment, and ADP equipment. If the responsible
        official is not within the Office of Finance, the Director of Finance should obtain
        their agreement to the new guidance.
      j Review the depreciation schedules and develop a process to ensure the correct
        calculation of expense is recorded for each asset during the year.
      j Issue an Administrative Notice on the length of time funds may remain in the
        Commission’s custody based on dollar amount but not to exceed a determined
        period of time.
      j Develop procedures and assign responsibility to ensure all liabilities are
        presented as accurately as possible.
      j Develop procedures and obtain appropriate approval for prompt issuance for
        management to perform its own self-study evaluation of its internal and
        administrative controls annually. The results of this study should be submitted
        to the Chairman to be transmitted to the President and the Congress.




                                           11
                                          ig
                            October 2005 SemiAnnual Report




AUDIT FOLLOW-UP—Continued
Evaluation of the U.S. International Trade Commission’s Discretionary
Document and Mail Distribution Program, OIG-AR-01-04 (May 26, 2004)
http://www.usitc.gov/oig/OIG-AR-01-04.pdf
The Commission agreed with all six recommendations and fully implemented four. By the
end of FY 2005, the Commission intends to complete action to satisfy the remaining two
recommendations—
       j Issue official guidance on the format (i.e., paper or CD-ROM) to be distributed
         for final reports and publications by type of customer (e.g., Congress, libraries,
         law firms).
       j Enhance the report distribution procedures by consolidating its mailing lists
         into one list and recording and tracking in its mailing lists the customers’ desired
         type of report and desired medium (i.e., paper, CD-ROM, and Web site).
Also, the annual verification letter should be revised to specifically request:
       j The customer’s email address for communicating and sending notices to the
         customer.
       j The customer’s report medium preference along with a short description of the
         delivery time for each type, including the immediate availability of the report
         and other information from the Commission’s Web site.
       j An explanation of how the customer would be alerted of the publication’s
         availability.
Some progress has been made on this recommendation, such as the database has been
updated to provide a single interface for all distribution lists. All information is stored in
a common repository. The type of report is captured. The capture of desired medium has
not yet been accomplished though some reports now are only being issued in CD format.
The verification letter has not yet been sent this year.
Evaluation of the Commission’s Travel Program, OIG-AR-03-02 (September 30,
2002) http://www.usitc.gov/oig/OIG-AR-03-02.pdf
The Commission agreed with all six recommendations, implemented five, but has yet to:
       j Issue an Administrative Order directing supervisors to identify and
         communicate each cardholder’s planned travel in order to have the cardholder’s
         authorized charge limit modified accordingly.

                                             12
                                        ig
                          October 2005 SemiAnnual Report




AUDIT FOLLOW-UP—Continued
With the advent of a major change in the travel service provider, the Commission has
postponed a final solution to this issue until the new travel management system is fully
operational. Charge limits have been placed on all travel cards Commission-wide and are
only removed for international travel. Random audits are conducted by the Office of
Finance on travel reports throughout the year. The costs and benefits of further limiting
or restricting card usage will be evaluated with the new service provider.
Evaluation of USITC’s Records Management, OIG-AR-05-00 (March 7, 2001)
http://www.usitc.gov/oig/OIG-AR-05-00.pdf
The Commission agreed with all 22 recommendations, implemented 21, but has yet to:
       j Identify records scanned by EDIS so they can be disposed.
The Commission has been working with the National Archives and Records Administration
on the standards for verifying scanned copies and steps needed to conform the electronic
records schedule to the paper records schedule.




                                          13
                                        ig
                          October 2005 SemiAnnual Report




                                INSPECTIONS

                            Inspection Report List
During this period we issued no inspection reports.




                                          14
                                            ig
                             October 2005 SemiAnnual Report




                               INVESTIGATIONS
The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations may result either from our own
audit, inspection and other work or in response to allegations, complaints, and information
received from employees, other government agencies, contractors, and other concerned
individuals. The objective of this program is to ensure the integrity of the Commission and
assure individuals fair, impartial, and independent investigations.


                           Summary of Investigative Activity
A summary of investigative activity is presented below.




       Case Workload                 Referrals Processed        Investigative Results
 Open (03/31/05)       1       Received from                   Referrals for
                               Hotline                  0      Prosecution              0


 Initiated             0       Referred to OIG
                               Audit & Inspection
                               Divisions                0
 Closed                0
                                                               Referrals Declined for
                               Referred to Commission   0      Prosecution              1
 Open (09/30/05)       1
                                                               Administrative
                               Referred to other               Action                   0
                               Federal Agencies         0

                               Evaluated but no
                               Investigation
                               Initiated                0




                                               15
                                          ig
                            October 2005 SemiAnnual Report




                            OTHER ACTIVITIES

Regulatory Review
The Inspector General Act, 5 U.S.C., Appendix, Section 4(a) (2), requires the OIG to review
existing and proposed legislation and regulations and to make recommendations
concerning the impact of such legislation or regulations on the economy and efficiency of
programs and operations administered by the Commission.

The OIG evaluates the impact that new or revised procedures will have on the economy and
efficiency of programs and operations. During this reporting period, the OIG did not receive
any items for comment.


Government Accountability Office (GAO)
The Inspector General Act states that each Inspector General shall give particular regard
to the activities of the Comptroller General of the United States with a view toward
avoiding duplication and ensuring effective coordination and cooperation. In September
2005, at Congress’ request, GAO issued a report (Issues and Effects of Implementing the
Continued Dumping and Subsidy Offset Act, GAO-05-979) that assessed the key legal
requirements guiding and affecting agency implementation of the Continued Dumping and
Subsidy Offset Act (CDSOA) of 2000. The report also assessed the problems that U.S.
agencies—including the Commission—have faced in implementing CDSOA. The sole
recommendation affecting the Commission was that Customs and Border Protection (CBP)
continue to work with the Commission to obtain electronically standardized information
on potentially eligible companies.

The GAO report noted that one year earlier our report—U.S. International Trade
Commission’s Implementation of the Continued Dumping and Subsidy Offset Act of 2000
(OIG-IR-01-04, dated September 30, 2004)—had suggested that the Commission better
document its policies and procedures for identifying and reporting eligible producers to
CBP and improve its communication with companies regarding eligibility. GAO found that
the Commission had implemented these suggestions to, among other things, update its
desk procedures, clarify certain staff responsibilities for maintaining the Commission’s list,
and add additional guidance on CDSOA requirements to its website.

Also in September 2005, at Congress’ request, GAO issued a report (U.S.-China Trade: The
United States Has Not Restricted Imports Under the China Safeguard, GAO-05-1056) that

                                             16
                                         ig
                           October 2005 SemiAnnual Report




OTHER ACTIVITIES—Continued

in part described the Commission’s role in administering the China safeguard but did not
make findings or recommendations pertaining to the Commission.


Management Assistance

The Assistant Inspector General for Audit provided the Commission with comments and
suggestions on strengthening controls to ensure the security and confidentiality of records
maintained in the FedTraveler System. Also, the Assistant Inspector General for Audit
alerted the Director, Office of Operations, of an employee’s planned action that did not
comply with the Commission’s awards policy and could have violated ethics rules.
Subsequently, the employee abandoned the planned action.

ITC is in the process of implementing revisions to its records management program,
pursuant to the OIG’s Evaluation of the Commission’s Record Management OIG-AR-O5-00
(March 7, 2001). The OIG Counsel serves as the OIG representative to the ITC records
management revision team. Also, the OIG Counsel prepared for the OIG a new draft
records schedule, which has been submitted to the National Archives and Records
Administration for comment.

ITC is pursuing an agency wide revision of Privacy Act notices. The OIG Counsel revised
Privacy Act notices for the OIG and submitted the proposed notices to the agency. The
revised notices permit other law enforcement agencies to access ITC OIG records for
specified purposes. Also, as part of the revision, the OIG removed the requirement of
providing Social Security numbers to obtain an individual’s personal records from the OIG.
Based upon the OIG’s revision, the ITC Privacy Act Officer planned to delete the Social
Security number requirement for accessing agency records and accepted the revised OIG
Privacy Act notices for publication with the agency’s amended notices.


Liaison Activities

The Inspector General is one of 28 DFE Inspectors General, who are members of the
Executive Council on Integrity and Efficiency (ECIE). Established by Executive Order
12805 on May 11, 1992, the ECIE is chaired by the Office of Management and Budget and,
in addition to the Inspectors General, includes representatives from the Office of Personnel
Management, the Office of Government Ethics, the Office of Special Counsel, and the
Federal Bureau of Investigation.

                                            17
                                         ig
                           October 2005 SemiAnnual Report




OTHER ACTIVITIES—Continued
The Inspector General also participates in activities sponsored by the President’s Council
on Integrity and Efficiency (PCIE), which consists primarily of the Presidentially appointed
Inspectors General. The ECIE and PCIE have identical functions and responsibilities to
promote integrity and efficiency and to detect and prevent fraud, waste and abuse in
federal programs.

During this period, the Inspector General served on the Board of the Association of
Inspectors General, where federal, state and local OIGs share ideas on how to enhance
their effectiveness and professionalism. The Inspector General completed over 3 years
serving as a member of the PCIE ECIE Human Resources Committee.

In addition to Human Resource Committee activities, the Inspector General has for more
than 4 years volunteered as an occasional guest instructor for the Inspectors General
Auditor Training Institute. As a Certified Myers Briggs Type Instrument® (MBTI)
Professional, he facilitated three team building workshops using the MBTI for multiple
Offices of Inspector General in Rosslyn, Virginia. He also spoke at an IGATI entry level
auditor class graduation luncheon.

The Assistant Inspector General for Audit (AIGA) is a member of the Financial Statement
Audit Network (FSAN) that anticipates potential changes and shares experiences related
to auditing their respective agencies’ financial statements.

The Counsel to the Inspector General served as one of the Vice Presidents of the Council
of Counsels to the Inspectors General (CCIG). Her duties include recording the minutes of
the monthly meetings and assisting with facility arrangements. The April and August
CCIG meetings were held at the ITC. As a member of the Inter-agency Ethics Council, she
continued to provide a monthly report to the Inter-agency Ethics Council on Federal Court
cases involving ethics issues.

Furthermore, the OIG Counsel attended the Fourteenth Annual Government Ethics
Conference in New York City. The conference titled “Ethics: A Broader Perspective”
sponsored by the U.S. Office of Government Ethics, featured concurrent sessions covering
topics such as fundraising, outside activities, contractors, whistleblower protections and
appropriations.

In addition to her professional contributions to the federal OIG community, the OIG
Counsel was a volunteer tutor for a first grade elementary school student. The Commission
adopted Amidon Elementary School, a neighboring District of Columbia public school, for
which Commission employees voluntarily tutor students in a variety of subjects.

                                            18
                                          ig
                          October 2005 SemiAnnual Report




              REPORTING REQUIREMENTS INDEX

The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
for semiannual reports.

CITATION            REPORTING REQUIREMENTS                                             PAGE

Section 4(a)(2)     Recommendations concerning the impact of such legislation or
                    regulations on the economy and efficiency in the administration
                    of programs and operations administered or financed by the
                    Commission                                                           16

Section 5(a)(1)     Description of significant problems, abuses, and deficiencies
                    relating to the administration of programs and operations          None

Section 5(a)(2)     Description of the recommendations for corrective action made
                    with respect to significant problems, abuses, or deficiencies      None

Section 5(a)(3)     Identification of each significant recommendation described in
                    previous semiannual reports on which corrective action has not
                    been completed                                                      9-13

Section 5(a)(4)     Summary of matters referred to prosecutive authorities and the
                    prosecutions and convictions which have resulted                     15

Section 5(a)(5)     Summary of each report made to the head of the establishment
                    under which information or assistance was unreasonably refused     None

Section 5(a)(6)     Listing of each audit report                                          9

Section 5(a)(7)     Summary of each significant report                                  9-10

Section 5(a)(8)     Statistical tables showing Audit Reports-Questioned Costs            20

Section 5(a)(9)     Statistical tables showing Audit Reports-Funds Put to Better Use     21

Section 5(a)(10)    Summary of each audit report issued before the commencement of
                    the reporting period for which no management decision has been
                    made by the end of the reporting period                            None

Section 5(a)(11)    Description and explanation of the reasons for any significant
                    revised management decisions                                       None

Section 5(a)(12)    Information concerning any significant management decision
                    with which the Inspector General is in disagreement                None


                                             19
                                                         ig
                                     October 2005 SemiAnnual Report




                      Table 1
       AUDIT REPORTS WITH QUESTIONED COSTS1
                                                                                                      Dollar Value

                                                         Number of                    Questioned              Unsupported
                                                           Reports                         Costs                    Costs

A.        For which no management decision has
          been made by the commencement of the period               0                             0                         0

B.        Which were issued during the reporting period             0                             0                         0

          Subtotals (A+B)                                           0                             0                         0

C.        For which a management decision was made
          during the reporting period                               0                             0                         0

          (i)      Dollar value of
                   disallowed costs                                 0                             0                         0

          (ii)     Dollar value of costs
                   not disallowed                                   0                             0                         0

D.        For which no management decision has been
          made by the end of the reporting period                   0                             0                         0

E.        Reports for which no management decision was
          made within six months of issuance                        0                             0                         0




    1 The ITC OIG generally does not perform contract audits that are the basis for mandatory reporting of questioned and
unsupported costs.


                                                            20
                                                  ig
                                 October 2005 SemiAnnual Report




                      Table 2
      AUDIT REPORTS WITH RECOMMENDATIONS
         THAT FUNDS BE PUT TO BETTER USE
                                                                           Number of   Dollar
                                                                             Reports    Value

A.      For which no management decision has been made by
        the commencement of the period                                             0       0

B.      Which were issued during the reporting period                              0       0

Subtotals (A+B)                                                                    0       0

C.      For which a management decision was made during the reporting period       0       0

        (i)       Dollar value of recommendations that were
                  agreed to by management                                          0       0

        (ii)      Dollar value of recommendations that were
                  not agreed to by management                                      0       0

D.      For which no management decision has been made by the end of the
        reporting period                                                           0       0

E.      Reports for which no management decision was made within six
        months of issuance                                                         0       0




                                                     21
                                         ig
                           October 2005 SemiAnnual Report




                                   GLOSSARY
The following definitions apply to the terms used in this report.


Questioned Cost              means a cost that is questioned by the Office because of:
                             (1) an alleged violation of a provision of a law, regulation,
                             contract, grant, cooperative agreement, or other agreement or
                             document governing the expenditure of funds; (2) a
                             finding that, at the time of the audit, such cost is not
                             supported by adequate documentation; or (3) a finding
                             that the expenditure of funds for the intended purpose is
                             unnecessary or unreasonable.

Unsupported Cost             means a cost that is questioned by the Office because the
                             Office found that, at the time of the audit, such cost is not
                             supported by adequate documentation.

Disallowed Cost              means a questioned cost that management, in a management
                             decision, has sustained or agreed should not be charged to the
                             Government.

Recommendation that          means a recommendation by the Office that funds could be
funds be put to better       used more efficiently if management of an establishment
use                          took actions to implement and complete the recommendation,
                             including: (1) reduction in outlays; (2) deobligation of funds
                             from programs or operations; (3) withdrawal of interest
                             subsidy costs on loans or loan guarantees, insurance, or
                             bonds; (4) costs not incurred by implementing recommended
                             improvements related to the operations of the establishment,
                             a contractor or grantee; (5) avoidance of unnecessary
                             expenditures noted in preaward reviews of contract or grant
                             agreements; or (6) any other savings which are specifically
                             identified.




                                           22
                                ig
                   October 2005 SemiAnnual Report




Special thanks to the Office of Information Technology Services for the
                       production of this report:




                                  23
  If you suspect Fraud, Waste, Abuse, or other misconduct at the
       International Trade Commission, please contact us at:

                      IGHotline@usitc.gov
                               or
                  EthicsLine 1--800--500--0333
                               or
              http://www.usitc.gov/oig/oighot.htm

The EthicsLine is available 24 hours per day. The caller can remain
  anonymous. If you prefer, you may send written complaints to:

             U.S. International Trade Commission
                   Office of Inspector General
                             Room 515
                        500 E Street, S.W.
                     Washington, DC 20436

Federal employees are protected from reprisal under the provisions
of the Whistleblower Protection Act of 1989. For more information,
 see the MSPB publication entitled “Questions and Answers About
  Whistleblower Appeals”, which is available in the Main Library,
               the Office of Personnel, and the OIG.
